Semiannual Report To Congress
       April 1, 2012 - September 30, 2012

    Fiscal Year 2012 Semiannual Report No. 2
                                                                                                                                  Table of Contents
 
 
FROM THE INSPECTOR GENERAL ........................................................................................................................ 3 
AUDITS AND REVIEWS ........................................................................................................................................ 5 
    OVERVIEW .................................................................................................................................................................... 6 
    AUDIT RESOLUTIONS ..................................................................................................................................................... 10 
    AUDIT OUTREACH ACTIVITY............................................................................................................................................ 11 
INVESTIGATIONS ............................................................................................................................................... 13 
    OVERVIEW .................................................................................................................................................................. 14 
    CRIMINAL ACTIONS ....................................................................................................................................................... 14 
    ADMINISTRATIVE ACTIONS ............................................................................................................................................. 16 
    PREVENTION ............................................................................................................................................................... 17 
REVIEW OF LEGISLATION AND REGULATIONS .................................................................................................... 20 
    CORPORATION POLICY COUNCIL ...................................................................................................................................... 21 
STATISTICAL AND SUMMARY TABLES ................................................................................................................ 22 
    I.      INSPECTOR GENERAL ACT REPORTING REQUIREMENTS ............................................................................................... 23 
    II.     REPORTS WITH QUESTIONED COSTS ........................................................................................................................ 24 
    III.    REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE .................................................................... 25 
    IV.     SUMMARY OF AUDITS WITH OVERDUE MANAGEMENT DECISIONS ................................................................................ 26 
    V.      REPORTS DESCRIBED IN PRIOR SEMIANNUAL REPORTS WITHOUT FINAL ACTION .............................................................. 27 
    VI.     AUDIT REPORTS ISSUED ........................................................................................................................................ 28 




                                                                                                                                                                                 1 
About the Corporation for National and Community Service . . .
The Corporation for National and Community Service (Corporation) provides grants and
technical assistance to volunteer organizations throughout the United States to strengthen
communities, foster civic engagement, and improve the lives of all Americans serving their local
communities and the Nation. For Fiscal Year (FY) 2012, the Corporation invested $752 million
in these service organizations: AmeriCorps, Volunteers in Service to America (VISTA), the
National Civilian Community Corps, and Senior Corps. The Corporation also distributed a
substantial portion of funding through public service commissions in each U.S. state and
territory.


And The Office of Inspector General . . .
In 1993, Congress established both the Corporation and the Office of Inspector General (OIG or
the Office). The Office was created to promote economy, efficiency and effectiveness in
administering the Corporation’s programs. The Office also prevents and detects waste, fraud,
and abuse within the Corporation or from the entities that receive and distribute Corporation
grant funds. OIG is an independent organization, led by a Presidential appointee, which
operates separately of the Corporation and submits its reports and recommendations to the
Corporation’s Chief Executive Officer and to the Congress.

Pursuant to the Inspector General Act of 1978, as amended, this semiannual report summarizes
OIG’s work for the last six months of FY 2012. It is being transmitted to the Corporation’s Chief
Executive Officer, Board of Directors, and Members of Congress.
                               




                                                                                               2 
From	the	Inspector	General	
 
As the newly confirmed Inspector General, I am pleased to present this Semiannual
Report to Congress, highlighting the accomplishments of the Office of Inspector
General (OIG) of the Corporation for National and Community Service (Corporation)
from April 1, 2012 to September 30, 2012. The eight audit reports issued in the past six
months identified more than $3,488,000 in questioned costs. Our investigative staff
closed twenty-two cases and recovered more than $400,000 from investigations that
ranged from the embezzlement of Federal grant funds to the misuse of Federal
property. I am inspired by the dedication of OIG’s staff members, who produced these
results despite adverse circumstances. I am equally encouraged by the steady
leadership of Deputy Inspector General Ken Bach, who guided the Office for three
years during the absence of an Inspector General.
At a time of increasing social needs and diminishing resources, national and community
service fills critical gaps for communities struck by natural disasters and for at-risk
youth, veterans, military families, seniors, and their communities. To maintain public
confidence, programs intended to meet these pressing needs must operate efficiently
and remain accountable. Such efficiency and accountability is extremely important as
our country faces difficult choices about how to invest of taxpayer dollars. My staff and
I are committed to strengthening the Corporation’s stewardship.             We are also
committed to ensuring that the Corporation and those who receive Corporation funds
use every available dollar effectively.
Many of our initiatives address issues and processes that cut across the Corporation’s
programs. For example, our Audit Section is helping the Corporation identify grantees
with practices that put public funds at risk. On a quarterly basis, we provide the
Corporation with the OMB Circular A-133 audits (issued for grantees that spend more
than $500,000 per year in Federal funds), highlighting those that find serious risk that
the grantee will not safeguard or account properly for Federal funds. As recommended,
the Corporation has educated grants officers regarding the meaning and significance of
such audit findings. The impact of this review should be substantial. One third of the
forty-five A-133 audit reports issued for Corporation grantees in FYs 2009-2011
disclosed at least one serious problem and, in two cases, the auditors questioned the
grantee’s financial viability. We hope that the Corporation will act promptly on this
critical information.
Grants account for 75 percent of the Corporation’s budget, making audits of high risk
grantees a priority. In this period, the OIG questioned costs of $886,845 from a single
grantee, which received funds from multiple Corporation programs. Inadequate
financial management, poor or nonexistent record retention, and lack of oversight at
service sites resulted in substantial mismanagement of Federal and match funds.
Auditors found pervasive noncompliance and internal control deficiencies throughout
the organization. In view of the immediate threat to Federal funds, the OIG moved
swiftly to prevent further losses by alerting the Corporation and the state commissions
to the gravity of the situation. The Corporation prevented further draw downs on its
grants and three state commissions either declined to renew or terminated their grants
with the organization.
Through early attention, we can also help new programs get off to a good start. This
period, we conducted the first audit of a grantee under the Social Innovation Fund (SIF),
created in the Edward M. Kennedy Serve America Act of 2009 to promote public and
private investments in effective nonprofit organizations to help them expand service in


                                                                                            3 
low-income communities. Many SIF grantees have little or no experience handling
Federal funds, placing a premium on monitoring and oversight. This audit questioned
costs of over $361,000 and recommended various improvements to monitoring,
including stronger supervision by grantees of their subcontractors. Another audit of a
major SIF grantee is now underway.
The results of the past six months reflect our commitment to protecting the nation’s
investment in national service and illustrate the productivity and capabilities of this
office. I look forward to helping the Corporation be an effective and accountable
steward of the public’s money.




4 
Audits	and	Reviews	
The Office of Inspector General Audit Section reviews the financial,
administrative, and programmatic operations of the Corporation for National
and Community Service. The Audit Section’s responsibilities include
supervising the audit of the Corporation’s annual financial statements,
assessing the Corporation’s management controls, reviewing the
Corporation’s operations, and auditing individual grants, contracts, and
cooperative agreements funded by the Corporation. All OIG audit reports
and reviews are issued to Corporation management for its action or
information.
                        




                                                                          5 
Audits and Reviews
Overview	

Eight reports and evaluative reviews, listed on page 27, were issued during the past six months.
Among these were six agreed-upon procedures1 of the Corporation’s National Direct grantees,
State public service commissions, and a VISTA grantee. They identified more than $3,400,000
in questioned costs and recommended that approximately $3,100,000 be put to better use.

At the end of the reporting period, an evaluation of the Corporation’s internal controls to prevent
and detect prohibited activities in AmeriCorps and Senior Corps programs was in process. Also
underway were two grantee audits, as well as the legally required audits of the Corporation’s
financial statements and the National Service Trust.

Below are highlights of particular evaluations and audits.

The Corporation Needs To Make Better Use of OMB Circular A‐133 (Single Audit) Reports Concerning 
its Grantees
OMB Circular A-133, Audits of States, Local Governments, and Non-profit Organizations,
requires that state and local governments, tribes and non-profit organizations that spend
$500,0002 or more in federal funds undergo an annual organization-wide audit that assesses
the reliability of the entity’s financial statements, the quality of its internal controls and its
compliance with federal grant requirements. These audits are conducted by public accounting
firms or by state auditors and are paid for with federal award funds. For a grant-making
organization, these audits are intended to be an important tool to ensure that a grantee handles
federal funds responsibly and accounts properly for their expenditure. Federal law requires that
Federal agencies review audit reports concerning their grantees, follow up on the findings, and
take action that may include withholding Federal funds to ensure that grantees correct any
defects identified in the audit.

In prior evaluations, OIG determined that the Corporation did not comply with Federal
requirements concerning the use of A-133 audit reports, and because it failed to make
appropriate use of this important tool, missed opportunities to identify and correct serious
problems in grantees’ handling of Federal funds.3 In particular, the Corporation did not respond
formally (or, in some cases, at all) to adverse audit findings or ensure that grantees completed
the necessary corrective actions and did not review A-133 audit reports before closing out a
grant to make sure that the Corporation was repaid amounts due for questioned costs. Our
most recent evaluation confirmed that many of these prior findings are still outstanding and that
our recommendations have not been implemented.

Our review evaluated the manner in which the Corporation used the A-133 audit reports issued
for its grantees for FY 2009; in that year, the Corporation awarded and oversaw more than $780
million in grants to states, tribes, local communities, and non-profit organizations, more than 263
of which were subject to A-133 audits.

In general, we found that the Corporation still does not make timely and effective use of the A-
133 audits of its grantees. Each of the 25 A-133 audits in our sample identified at least one
                                                            
1
  An “agreed-upon procedure review” is essentially a mini-audit limited to particular areas or subjects in which the
auditor does not provide a formal opinion but reports on the results and makes recommendations.
2
  OMB has proposed raising the Single Audit Act threshold from $500,000 to $ 1 million. Draft Notice of Intent to
Reform Policies Associated with Federal Grants issued to Federal agencies on February 7, 2012.
3
  See AICPA, SSAE, AT Section 201.03.


6 
                                                                      Audits and Reviews
“material weakness,” a defect in the grantee’s internal controls serious enough to cause a
material error on the financial statements. In 75 percent of the sample, the grants officers
responsible for monitoring these grantees did not record the adverse findings in the
Corporation’s records. As a result, the Corporation failed to take any action to address serious
problems within its grantees. Grants officers did not follow-up to ensure that the Corporation
recovered the amounts due for questioned costs or that the grantees took action to correct
critical problems identified by the auditors. In some instances, grants officers failed to intervene
promptly to correct these problems or mitigate risk to Federal funds because they did not
understand the meaning or gravity of key audit findings reflecting fundamental problems with a
grantee’s financial reporting or internal controls (e.g., findings of a “material weakness” or
“significant deficiency”). Some of the audit reports were not reviewed by any Corporation
employee.

Because the Corporation did not follow up on A-133 audit findings for FY 2009, many of the
problems persisted into FY 2010. Half of the grantees for which auditors identified material
weaknesses in FY 2010 also had those problems reported in FY 2009. Thus, the Corporation’s
failure to act allowed these problems to continue and, in some cases, to worsen.

In at least one case, the Corporation did not share highly critical results of an A-133 audit with
State authorities responsible for supervising the grantee. Specifically, the Corporation did not
communicate serious and pervasive problems discovered in an A-133 audit of Operation
REACH, Inc. (ORI), to three State Commissions that were overseeing grants to that
organization. As a result, after the FY 2009 report was issued, additional Corporation funding
was provided ORI with grants totaling $466,461, despite the unresolved material weaknesses
identified in the A-133 audit. An OIG audit of ORI, discussed below, determined that ORI was
unable to account for the use of those funds, as well as funds previously received.

To safeguard Federal funds and the integrity of Federal programs, we recommended that the
Corporation promptly review every A-133 audit report issued for its grantees, communicate with
state commissions concerning A-133 audits of their grantees, timely follow up on all questioned
costs and adverse audit findings and recover any amounts due the Corporation, ensure that
appropriate corrective actions are implemented, and document each of these steps. In addition,
we recommended that A-133 reports be reviewed before a grant is closed out, to provide the
Corporation with a final opportunity to recover any improperly incurred costs. To improve the
Corporation’s use of A-133 audits, we further recommended that grants officers receive periodic
training regarding the meaning and significance of key audit findings, as well as appropriate
follow-up measures.

On a quarterly basis, OIG agreed to furnish the Corporation with a list of recently issued A-133
reports pertaining to Corporation grantees, identifying those that contain findings of material
weaknesses or significant deficiencies, or other adverse findings of comparable gravity. OIG
provided the first of these reports in September 2012. Of the 45 audit reports included in that
group, five disclosed at least one material weakness in FYs 2010 or 2011 and 11 reflected at
least one significant deficiency in FYs 2009, 2010, and 2011. In two cases, the auditors
expressed doubts about the continuing financial viability of the organization (known as a “going
concern opinion”). OIG recommended that the Corporation consider whether to allow additional
drawdowns of their grant funds.

National Service Trust Made Proper Payments to Bona Fide Financial and Educational Institutions, but 
Should Verify the Funds’ Application to Qualified Student Loans and Compliance with Federal 
Regulations 


                                                                                                    7 
Audits and Reviews
The National Service Trust (Trust) provides funds for education awards for the benefit of
participants who complete service in AmeriCorps programs. Trust funds may be used to repay
qualified student loans and interest and to pay educational expenses at a qualified institution of
higher education.

We conducted an audit to determine whether payments from the Trust were: (1) properly
reviewed and approved prior to disbursement; (2) accurately recorded in a timely manner; (3)
paid to financial and educational institutions legally qualified to receive them; and (4) subject to
adequate internal controls.4 Our audit sample contained no improper payments; all of the
payments that we reviewed were recorded in a timely manner, and were properly reviewed and
approved prior to disbursements. We found no evidence to cast doubt on the bona fides of the
schools or financial institutions that received payments from the Trust.

However, the Corporation’s records and processes do not ensure that financial institutions that
receive Trust payments in fact have student loans that are eligible to benefit from an education
award. Only student loans guaranteed by the Federal government may be repaid with an
education award. The Corporation relies solely on a certification by a financial institution payee
that it holds such a guaranteed loan and will apply the Trust payment to it. Similarly, the
Corporation does not verify that installment payments are made in compliance with the schedule
required by Federal regulation 45 C.F.R. § 2528.30(c), Installment Payments. Instead, the
Corporation relies solely on a certification of compliance from the educational institution
receiving the payment. We recommended that the Corporation conduct and document periodic
reviews to validate that education awards are paid against a qualified loan and that installment
payments are being disbursed in accordance with the regulation.

Multiple and inconsistent listings of financial institutions and schools in the computerized system
that records and tracks Trust payments create confusion and may result in the misdirection or
delay of payments. The Trust has no established procedures for updating or correcting entries,
eliminating duplication, and resolving inconsistencies or determining when, whether, or why a
particular institution should be changed to inactive status, or ensuring that the information is
uniform throughout the Corporation’s information systems. We recommended that the Trust
adopt such procedures to minimize erroneous payments and unnecessary delay.

Almost $900,000 of Questioned Costs Found at Operation REACH, Inc. 
An audit of Operation REACH, Inc. (ORI) identified costs of $886,845 ($559,659 Federal costs,
$99,897 education awards, and $227,289 match funds) that were unsupported by required
documentation and/or incurred improperly, in violation of applicable laws, regulations and grant
terms and conditions. Our audit also disclosed pervasive noncompliance and internal control
deficiencies throughout the Corporation’s sponsored programs,5 many of which persisted
despite ORI’s prior assurances to multiple State commissions (Louisiana, Alabama, and
Georgia) that the problems were being rectified. Issues resulting in significant questioned costs
included:

              •              Unallowable, unallocable, and unsupported costs charged to grants;
              •              Employee payroll deficiencies;

                                                            
4
 This audit was separate from the legally required annual audit of the Trust’s financial statements.
5
 The organization’s stated objective is to improve educational success by assisting programs that provide
community-based learning opportunities. ORI received funds from AmeriCorps National Direct, AmeriCorps State
grants through the service commissions of Louisiana, Alabama and Georgia, Volunteers in Service to America
(VISTA) and Learn and Serve America.


8 
                                                                                Audits and Reviews
              •              Irregularities in member timekeeping;
              •              Payments to members for whom ORI failed to complete necessary criminal
                             background checks;
              •              Unallowable direct service by a VISTA member at a daycare center operated by
                             ORI’s CEO; and
              •              Improper accounting and unsupported program income.

Inadequate financial management, poor or nonexistent record retention, and lack of oversight at
service sites resulted in substantial mismanagement of Federal and match funds.

These severe deficiencies placed Federal funds at such substantial risk that we alerted the
Corporation and State Commission representatives during our audit and urged them to take
immediate actions to prevent further losses. As a result, the Corporation placed a hold on ORI’s
access to additional grant funds. The Louisiana and Alabama State Commissions did not renew
their grants, and the Georgia State Commission, which had initially renewed its grants to ORI,
terminated them shortly thereafter in early October 2011. As a result of our audit, we prevented
$2,703,682 of Georgia State and National Direct grant funds from being further awarded to ORI.
ORI no longer receives Federal grant funds from the Corporation.6

ORI’s audit illustrates vividly the high cost of disregarding adverse findings in an A-133 audit
report. For FY 2009, ORI’s A-133 auditors identified two material weaknesses in its financial
management system and untimely submission of its audit report, plus a significant deficiency in
financial reporting. The Corporation failed to take note of these findings or to act to protect
Federal funds from waste, fraud or mismanagement. As a result, after the FY 2009 report was
issued, additional Corporation funding was provided ORI with grants totaling $466,461 despite
the unresolved material weaknesses identified in the A-133 audit. Nearly half of the costs
questioned in our audit were disbursed after issuance of the critical 2009 A-133 audit report.
Had the Corporation acted promptly on those findings, improperly incurred costs could have
been avoided.

Given the fundamental and pervasive nature of these problems, we recommended that the
Corporation recover all questioned costs of $886,845. We also recommended that the
Corporation not award further funds to ORI, which has, in any event, ceased operations.

First Audit of Social Innovation Fund Grantee Questions Costs of $361,836   
An agreed-upon procedures review of AIDS United, a Washington-based non-profit organization
dedicated to fighting HIV/AIDS, questioned costs totaling $400,779. The majority of those
costs, $361,836, related to a grant made to the organization from the Social Innovation Fund
(SIF), a new program designed to promote public and private investments in effective nonprofit
organizations to expand their service to low-income communities in the areas of economic
opportunity, healthy futures, and youth development. This is the first audit conducted by OIG of
a SIF grant. The questioned costs stemmed from the grantee’s incorrect calculation of indirect
costs, and to its use of a cost rate for administrative overhead other than the negotiated rate to
which it had agreed to use as part of the grant agreement. The auditors also found that the
grantee did not comply with Federal timekeeping requirements, did not properly monitor its
subcontractors to ensure that they followed SIF regulations requiring financial reporting of their
                                                            
6
 Unexpected budget cuts during FY 2012 precluded OIG’s Investigation Section from pursuing allegations that ORI’s
CEO improperly used Corporation and matching grant funds for personal purchases, family vacations, and his
personal business. Given the lack of documentation found by the auditors, substantial forensic resources would have
been required to investigate those allegations to conclusion.


                                                                                                                 9 
Audits and Reviews
program’s expenses, and did not have adequate procedures to ensure that cash advances to
subgrantees were disbursed in a timely manner.

Our audit also questioned costs of $33,593 and an education award of $5,350 incurred under
grant awards under the AmeriCorps State and National program, and special awards under the
American Recovery and Reinvestment Act of 2009. The unsupported costs fell into two
categories. First, certain members were not eligible to participate because the grantee did not
conduct and/or document legally required criminal history searches and sex offender registry
checks. Second, the auditors questioned costs claimed for unemployment insurance because
the grantee: (1) did not demonstrate that state law required its host agencies to maintain such
insurance; and (2) required its members to state in writing that they were ineligible for
unemployment insurance.

We recommended a number of improvements, including strengthening controls over the
grantee’s monitoring of its subgrantees, enhancing policies and procedures for administering
both the AmeriCorps and SIF grants, and adhering to the grantee’s negotiated agreement for
claiming indirect costs. We also recommended that the Corporation calculate and recover the
appropriate amount of disallowed costs based on the questioned costs reported.


Audit	Resolutions	
 
Corporation’s Unwillingness to Recover Costs of Unallowable Direct Service by VISTA Members 
Undermines Accountability 
OIG disagrees with the Corporation’s refusal to recover costs incurred when sponsors required
VISTA members to perform “direct service,” in violation of the Domestic Volunteer Service Act
program rules limiting member service activities.          See Guidelines for Selection of
AmeriCorps*VISTA Sponsors and Projects, Criteria for Selection of AmeriCorps VISTA
Sponsors and Projects, Part II.B.2.b., 60 Fed. Reg. 7173 (Feb. 7, 1995).

The VISTA program provides living allowances and education awards to individuals whose work
involves strengthening or enhancing the capability of an anti-poverty organization (“capacity
building), but does not allow them to assist individual members of the public (“direct service”).
To obtain the services of a VISTA-supported individual, the sponsoring organization must agree
in writing to use those services solely for capacity building and not for direct service.

In 2009, the City of New York’s Office of the Mayor obtained the services of 200 VISTA
participants and entered into an agreement to devote them solely to capacity building activities.
A 2011 audit determined that some of those VISTA participants were nevertheless assigned to
provide direct services (e.g., advising clients at a legal aid clinic, mentoring students, and
planting trees for a beautification project) in violation of that agreement and VISTA
requirements. Our audit therefore recommended that the Corporation recover a pro rata share
of the living allowances and education awards from the Office of the Mayor for the time that
those individuals spent performing direct services. Report No. 11-11, Audit of Corporation for
National and Community Service Grants Awarded to the New York City Office of the Mayor. In
our view, the sponsor, which accepted limitations on its use of a federally funded resource—the
services of VISTA participants—is responsible for the costs that result from its misuse of that
resource.




10 
                                                                   Audits and Reviews
The Corporation, however, decided not to seek any recovery from the Office of the Mayor
because living allowances did not flow through the Mayor’s Office but were instead paid directly
to individual VISTA participants:

      There are no living allowance/stipend costs to ‘disallow’ and recover because no
      federal funds were ever awarded. Given the non-grant nature of most VISTA
      programs, if Corporation staff determines that a sponsor organization has not
      complied with VISTA requirements, policies dictate we [Corporation] end the
      project and re-assign the VISTA member.
Corporation’s June 20, [2011] Response to Draft Audit Report, adopted as part of Corporation’s
Final Management Decision by memorandum dated September 26, 2012.

This decision effectively undermines accountability for the VISTA program; the Corporation’s
policy leaves no meaningful recourse against a sponsor that misuses VISTA personnel.
Whether the living stipend was paid directly to the VISTA participant, or was given as a grant to
the sponsor to be disbursed to VISTA participants, is a matter of form, rather than substance.
The Corporation committed Federal resources in reliance on the sponsor’s promises, and the
sponsor should be accountable for unallowable costs that were incurred when it breached those
promises. Throughout the AmeriCorps program, the Corporation routinely requires a grantee to
repay improperly incurred education awards, even though the grantee itself does not receive or
handle those funds. Indeed, the Corporation’s Final Management Decision in this matter
concedes that it could require a VISTA sponsor to repay education awards that it caused the
Corporation to issue to ineligible individuals. We see no meaningful distinction between
requiring a sponsor to repay education awards given to ineligible individuals and requiring the
same sponsor to repay living allowances provided to those same ineligible individuals.


Audit	Outreach	Activity	
The Audit Section continued its active participation in events designed to inform the grantee
community and the general public about OIG initiatives and audit-related matters. In April, OIG
representatives took part in the Financial and Grants Management Institute in St. Louis, MO, a
Corporation-sponsored training attended by hundreds of AmeriCorps grantees and their staffs.
An Audit Manager co-presented a workshop on “Avoiding Common Issues and Pitfalls” in
preparing for OIG audits.

We were honored to be included in the Corporation’s first Internet Virtual Conference, a three-
day interactive webinar sponsored by the Senior Corps program office in August, in preparation
for the first national competition for Senior Corps grants. This live conference employed the
latest technology to convert the OIG conference room into a virtual broadcasting studio. It
featured the Inspector General and an Audit Manager in a 60-minute nationwide presentation to
Senior Corps grantees and program sites. Using slides and live voice-over narration, the
presenters discussed OIG’s goal of ensuring responsible and prudent use of Federal funds,
preventable problems frequently discovered in audits, fraud indicators that should be taken as
warning signs, and examples of recent audits and investigations. Attendance was strong; 646
attendees viewed the live session, with others watching the recorded version. We were very
pleased with the number of online questions reflecting participants’ desire to comply carefully
with applicable rules and regulations. Our responses to those questions were subsequently
posted to the Corporation’s knowledge center website.




                                                                                              11 
Audits and Reviews
Taking advantage of annual grantee meetings in September in Washington DC, members of
OIG spoke with leaders for the Corporation’s major components. The Inspector General joined
Corporation CEO Wendy Spencer and Chair of the Board of Directors Laysha Ward in
addressing the opening plenary session of the Executive Directors of AmeriCorps grantees.
Later, she met with the State Directors for Senior Corps and VISTA to share her perspective
and hear their observations about issues on which OIG might focus. An OIG Audit Manager
made a presentation to intermediaries and subgrantees attending the Social Innovation Fund
Grantee Meeting, using a 50-minute slide show tailored to the specialized audit concerns of the
SIF group, and answered general questions about recent SIF audits and their findings, the
Office of Management and Budget cost principles and other topics. We viewed this as an
important opportunity to enhance the effectiveness of their grant administration, particularly
because many SIF grantees have little experience with Federal funds and have not previously
undergone a Federal audit.




12 
 


Investigations		
The Investigations Section is responsible for the detection and investigation
of fraud, waste, and abuse in the Corporation’s programs and operations.
The Section probes allegations of serious—sometimes criminal—
misconduct involving the Corporation’s employees, contractors and grant
recipients that threatens the integrity of the Corporation’s service initiatives.
Evidence of serious criminal or fraudulent conduct is referred to the
appropriate United States Attorney or, in some instances, to a local district
attorney for criminal or civil prosecution and monetary recovery. Other
investigative results are referred to Corporation management for
information or administrative action.




                                                                               13 
Investigations
Overview	
In the last six months, the Investigations Section opened ten new cases and closed 22 cases,
ten of which resulted in findings of serious misconduct, recoveries of more than $400,000, and
avoidance of over $2.3 million of awards of additional grant costs to irresponsible organizations.
The Corporation issued four debt letters totaling $188,758, demanding repayment for
misapplication of program funds, and debarred six persons from participating in federal grants
and contracts for their fraudulent conduct. This caps off a year in which OIG investigations
recovered more than 2.8 million dollars in taxpayer funds, and identified the potential recovery
of more than 4 million dollars from a program found to have engaged in fraud, waste, or abuse
of Corporation resources.

Also during this period, our investigations resulted in four criminal sentences for individuals
convicted of financial misconduct. Specifically, the United States District Court for the District of
Columbia sentenced the former Executive Director of the American Samoa Special Services
Commission to 14 months in prison, and ordered her to pay $325,000 in restitution for her theft
of Corporation grant funds. Also, the United States District Court for the District of Puerto Rico
sentenced three VISTA members to six months’ probation for defrauding the VISTA program by
attending school full- time during their VISTA year of service. Both sentences resulted from
investigations by this office and were previously reported.

The Investigation Section is staffed by two investigators and the Assistant Inspector General for
Investigations. We were also assisted by 95 calls, letters and e-mails to our Fraud Hotline and
by referrals from Corporation managers, employees and program participants.

Highlights of our activities appear below.


Criminal	Actions	
 
Idaho Foster Grandparent Program Employees Sentenced and Ordered to Repay Embezzled Funds 
Two employees of the Idaho Foster Grandparent Program each pled guilty to one count of fraud
under 18 U.S.C. § 666 for misusing the grantee’s credit card, charging a total of $62,763.54 for
their personal benefit. One of the individuals was sentenced to nine months’ home detention
and ordered to report for confinement during that period for six consecutive weekends, plus five
years’ probation, and was ordered to pay restitution of $48,861.47. The other individual was
sentenced to 90-days’ home detention and five years’ probation, and was ordered to pay
$13,902.07 in restitution. The Corporation debarred both for a period of three years.

Topeka Senior Companion Program Manager Sentenced and Ordered to Repay Embezzled Funds 
A joint investigation with the Topeka Police Department disclosed that a Senior Companion
Program manager defrauded the program of Federal funds by submitting requests for funds
purportedly to be paid to Senior Corps volunteers for stipends and other legitimate expenses.
She then used a program-issued debit card to withdraw the money from the grantee’s account,
obtaining cash from ATMs in the greater Topeka area and at various casinos in Kansas and
Oklahoma. The program manager also fraudulently increased her pay, without the approval of
the grantee’s Board of Directors, and issued and cashed checks without authorization. In all,
she diverted $28,433.66 dollars in Federal program funds for her personal use.
Upon prosecution by the United States Attorney’s Office, for the District of Kansas, she pled
guilty to one count of Program Fraud and was sentenced to six months of home detention, plus


14 
                                                                           Investigations
three years of supervised probation, and was ordered to make full restitution. The Corporation
debarred her for a period of two years.
 
Kentucky AmeriCorps Member Sentenced and Ordered to Pay Restitution for Stealing Program Funds 
A joint investigation with the Kentucky State Police disclosed that an AmeriCorps member
embezzled $4,250 in grant funds when she stole, forged and negotiated grantee checks for
personal use. Upon prosecution by the Attorney General’s Office for the Commonwealth of
Kentucky, the member was sentenced to three years confinement, suspended, plus three years’
supervised probation. She was also ordered to make restitution. The Corporation debarred her
for a period of three years.
 
Maryland NCCC Member Sentenced for Sexual Assault 
A joint investigation with the U.S. Department of Veterans Administration OIG determined that
an AmeriCorps member assigned to the National Civilian Community Corps (NCCC) campus at
Perry Point, Maryland sexually assaulted another NCCC AmeriCorps member. Following
prosecution by the Maryland Attorney General’s Office, the former member pled guilty to a count
each for burglary and assault, and to two sex offense counts, and was sentenced to six years’
incarceration, with three years’ suspended, and was placed on supervised probation for three
years upon release. He will also be required to register as a sex offender.

Michigan Employee Charged with Embezzling Grant Funds 
The Michigan Attorney General’s Public Integrity Unit brought two charges of felony
embezzlement against an employee of the state’s Department of Human Services. The
embezzlement was discovered as a result of a routine agreed-upon procedures review of the
Michigan service commission, which is funded by the Corporation. The employee allegedly
misused three state procurement cards, making purchases of $4,400 for her personal benefit.
An OIG audit found that the Commission was unable to provide supporting documentation for
certain of the purchase card expenses, and further inquiry discovered repeated misuse of the
cards over a period of nearly two years. The Commission reports that it has revised its internal
control procedures to mitigate these risks. OIG continues to review the matter.
 




                                                                                              15 
Investigations
Administrative	Actions	
Debarments	
 
Texas VISTA Supervisor Debarred for Violating Nepotism Policy 

The OIG received information that a VISTA Supervisor violated the Corporation’s VISTA
nepotism policy when she knowingly allowed her biological sister and her biological daughter to
serve in the VISTA program under her supervision. The VISTA supervisor misled Corporation
employees causing the Corporation to disburse $7,774.29 in federal funds to the two ineligible
VISTA members. The Corporation has requested that the grantee repay the disallowed costs
and debarred the supervisor for a two-year period.

Atlanta VISTA Member Debarred for Falsifying Childcare Enrollment 
OIG investigators determined that a VISTA member fraudulently received childcare benefits by
falsifying her monthly daycare invoices and attendance logs. These fraudulent submissions
improperly enabled a family member to receive $1,065 in childcare benefit payments. The
former VISTA member admitted to falsifying the monthly daycare invoices and attendance logs.
The Corporation declined to issue a debt letter to recover the funds, but debarred the former
VISTA member for a period of one year.


Grant	Terminations/Relinquishments	
 
Florida Retired Senior Volunteer Program Relinquishes Grant 

A Florida Retired Senior Volunteer Program (RSVP) relinquished its grant following an OIG
investigation that determined that the program failed to maintain records that accurately showed
the number and identity of current volunteers, their assignments and locations. Although the
grantee mismanaged the program, investigation did not find a loss of Federal funds.

Demands	and	Recoveries	
 
Oklahoma Foster Grandparent Program Owes $1.3 Million for Failing to Meet Program Requirements 
and Misuse of Program Funds 
 
Our investigators substantiated an employee’s allegation that the Executive Director of a Foster
Grandparents Program (FGP) in Oklahoma misused program funds by using them to pay
employees for work unrelated to the grant. In response to a subpoena, the grantee
acknowledged that it was unable to locate records regarding its use of Federal funds. The
Corporation accordingly disallowed $1,133,297.76 paid to the grantee and issued a letter
demanding repayment.

                              	




16 
                                                                             Investigations
Prevention	
 
Review of Information Technology Inventory Accountability Leads to Improved Controls 

Following up on a finding in the audit of the Corporations’ FY 2011 financial statement,
investigators reviewed the methods used by the Corporation to safeguard its Information
Technology (IT) property and equipment, in order to identify vulnerabilities. The Corporation
has updated its Computer Property Management policy to require tighter control of IT inventory
and is developing new processes for tracking IT assets and inventorying them on a quarterly
basis.

Applicant Who Used Multiple Identities Prevented from Re‐Enrolling in VISTA Program
Based on a report from a Corporation employee, our investigation determined that a single
individual used multiple names and Social Security Numbers to enroll in VISTA programs in
New Jersey, Nebraska, and Utah in 2010 and 2011. This dishonest conduct did not cause any
loss of Federal funds because the individual never served more than a few weeks at any of the
VISTA sites. For this reason, no criminal prosecution was initiated. However, the Corporation
is monitoring VISTA applications to prevent future efforts by this individual to re-enroll in the
program.




                                                                                              17 
Investigations

                                     Summary Of Cases
      Opened and Closed

      Cases Open at Beginning of Reporting Period                                            25

      New Cases Opened                                                                       10

      Cases Closed this Period With Significant Findings                                     10

      Cases Closed this Period With No Significant Findings                                  12

      Total Cases Closed                                                                     22

      Cases Open at End of Reporting Period                                                  13

      Referred

      Cases Referred for Prosecution                                                         2

      Cases Accepted for Prosecution                                                         1

      Cases Declined for Prosecution                                                         2*

      Cases Pending Prosecutorial Review                                                     0

      Cases Pending Adjudication                                                             4*

      Recommendations to Management

      Investigative Recommendations Referred to Management                                   8


      Investigative Recommendations Pending this Reporting Period                            1


      Investigative Recommendations Pending from Previous Reporting Periods                  4


      * This includes cases referred for prosecution during the previous reporting period.




18 
                                                                                Investigations

          Fiscal Year           FY 2008     FY 2009       FY 2010       FY 2011       FY 2012
      Investigative actions
                                  41           40            39            42            22
             opened

      Investigative actions
                                  51           43            46            35            42
      resolved and closed

Average monthly caseload          38           32            32            34            26
   Investigative matters
resolved without opening a
                                  68           40            45            39            51
  separate investigative
           action
    Referrals for prosecution      8            3             9             8             4

    Investigative recoveries2   $947,540   $1,317,227     $634,803      $447,854     $2,846,203

        Cost avoidance3         $81,731     $300,000     $1,218,178    $1,666,294    $2,321,521

   Administrative or
                                  29           16            20            14            17
management action taken

2
  Includes money received by the Corporation or other government agencies as a result of OIG
investigations, including joint investigations with another OIG, Federal, or State investigative
element.

3
 When OIG investigative action identifies a systemic practice that has subsequently been
stopped or modified due to some type of OIG investigative interdiction, any clear and
unmistakable savings to the Corporation are reported as cost avoidance.




                                                                                                   19 
Review	of	Legislation	and	Regulations	
Section 4(a) of the Inspector General Act directs the Office of Inspector
General to review and make recommendations about existing and
proposed legislation and regulations relating to the Corporation’s programs
and operations. The Office of Inspector General reviews legislation and
regulations to determine their impact on the economy and efficiency of the
Corporation’s administration of its programs and operations. It also reviews
and makes recommendations on the impact that legislation and regulations
may have on efforts to prevent and detect fraud and abuse in Corporation
programs and operations. The Office of Inspector General draws on its
experience in audits and investigations as the basis for its
recommendations.




                                                                          20 
                                        Review	of	Legislation	and	Regulations	


Corporation	Policy	Council	
The OIG continued its active participation in the Corporation’s Policy Council, which is charged
with developing and amending internal policies covering all agency operations. During this
period, we commented on a number of proposed policies, including the Corporation’s policies
on Audit Resolution, Grant Funds Hold for Late Reporting, OIG Investigation Findings, and the
procedures on VISTA Verification of Compelling Personal Circumstances.

As a result of findings reported in the OIG report Evaluation of the Corporation’s OMB Circular
A-133 Reports Monitoring Process, the Corporation revised its policy on audit resolution. After
issuance of the policy in draft, the Corporation accepted all of our comments and suggested
changes to its Audit Resolution policy. Most notably, the revised policy designates those
Corporation officials who will have specific responsibilities in the audit resolution process, and
assigns the Inspector General the role of primary designated National Single Audit Coordinator
for the Corporation. As set forth in the revised policy, OIG will provide the Corporation quarterly
summaries of OMB Circular A-133 audit reports of Corporation grantees that contain significant
audit findings, such as going-concern issues, material weaknesses, and questioned costs, that
warrant corrective action by the Corporation. As required by OMB Circular A-50, Audit Follow-
up, we expect resolution will be made by the Corporation within six months after receipt of the
report.

Also during this reporting period, the Corporation issued new procedures for the VISTA program
to verify the validity of a release from VISTA service under a so-called “compelling personal
circumstances” justification. A release under such circumstances permits a VISTA member a
pro-rated amount of the education award earned through a full year of service. The issuance of
the new verification procedures responds to recommendations made in our report, Audit of
Earned Education Awards Resulting from Compelling Personal Circumstances, which found
wide-spread noncompliance with the requirements for a release, including invalid justifications,
lack of supporting documentation of medical circumstances, and other monitoring control
discrepancies.

The Corporation also accepted all our suggested changes and comments to its policies titled
Grant Funds Hold for Late Reporting, and OIG Investigation Findings.




                                                                                                21 
 
 


Statistical	and	Summary	Tables	
The statistical and summary tables in this section are submitted in
compliance with the requirements enumerated in the Inspector General
Act.
                        




                                                                       22 
                                                                                                Tables

Statistical and Summary of Tables 
I.	   Inspector	General	Act	Reporting	Requirements	
      This table cross-references the reporting requirements prescribed by the Inspector General Act of
      1978, as amended, to the specific pages in the report where they are addressed.


                        Recommendations with respect to significant problems, abuses
           5 (a)(2)       and deficiencies found in the administration of Corporation
                                                                                           Throughout
                                           programs and operations
                         Prior significant recommendations on which corrective action
           5 (a)(3)                                                                           26
                                             has not been completed

           5 (a)(4)               Matters referred to prosecutorial authorities               17
                                                                                           None this
           5 (a)(5)          Summary of instances where information was refused
                                                                                            period
                         List of audit reports by subject matter showing dollar value of
           5 (a)(6)                                                                           23
                                   questioned costs and unsupported costs.
           5 (a)(7)                     Summary of significant reports                     Throughout

                         Statistical table showing number of reports and dollar value of
           5 (a)(8)                                                                           23
                                                 questioned costs

                         Statistical table showing number of reports and dollar value of
           5 (a)(9)                                                                           24
                                recommendations that funds be put to better use
                         Summary of each audit issued before this reporting period for
           5 (a)(10)     which no management decision was made by end of reporting            25
                                                   period
                                                                                           None this
           5 (a)(11)              Significant revised management decisions
                                                                                            period
                          Significant management decisions with which the Inspector
           5 (a)(12)                                                                          10
                                             General disagrees




                                                                                                        23 
Tables

II.		     Reports	with	Questioned	Costs	


                                                                       Federal Costs

                Report Category                    Number   Questioned            Unsupported
                                                                       (Dollars in thousands)
 A.     Reports for which no management              11        $880                      $242
        decision had been made by the
        commencement of the reporting period

 B.     Reports issued during the reporting          1        $3,488                    $2,690
        period
 C.     Total Reports (A + B)                        12       $4,368                    $2,932

 D.     Reports for which a management               3         $199                       $51
        decision was made during the reporting
        period
          i.    Value of disallowed costs                      $109                       $39

          ii.   Value of costs not disallowed                  $90                        $12

 E.     Reports for which no management              9        $4,168                    $2,880
        decision had been made at the end of the
        reporting period (C minus D)

 F.     Reports with questioned costs for which      5         $298                      $107
        no management decision or proposed
        management decision was made within
        six months of issuance




24 
                                                                            Tables

III.	     Reports	with	Recommendations	That	Funds	Be	Put	To	Better	Use	
 


                  Report Category                 Number*   Dollar Value*
                                                              (Dollars in
                                                             thousands)
    A.   Reports for which no management             9          $658
         decision had been made by the
         commencement of the reporting period

    B.   Reports issued during the reporting         5         $3,109
         period
    C.   Total Reports (A + B)                      14          3767*

    D.   Reports for which a management              4          $121
         decision was made during the reporting
         period
           i.    Value of recommendations                        $33
                 agreed to by management

           ii.   Value of recommendations not                    $88
                 agreed to by management

    E.   Reports for which no management            10         $3,646
         decision had been made by the end of
         the reporting period

    F.   Reports for which no management             3          $417
         decision was made within six months of
         issuance



    * Minor Adjustments due to rounding.




                                                                                25 
Tables

IV.	     Summary	of	Audits	with	Overdue	Management	Decisions	

                                                                                   Status at End
                                                                       Mgmt.
  Report                                       Federal Dollars                     of Reporting
                         Title                                        Decision
  Number                                        Questioned                             Period
                                                                        Due
                                                                                     (09/30/11)
                                             (Dollars in thousands)
              Agreed-Upon Procedures for                                           The Corporation
              Corporation for National and                                         issued a Draft
              Community Service Grants                                             Management
      11-20                                        $262,038           10/17/2011
              Awarded to Colorado                                                  Decision
              Governor's Commission on                                             September 24,
              Community Service                                                    2012.
                                                                                   The Corporation
              Audit of the Town of West                                            issued a Draft
              Seneca aka WNY                                                       Management
      11-21                                        $35,903            1/25/2012
              AmeriCorps aka The Service                                           Decision
              Corroborative of WNY                                                 September 21,
                                                                                   2012.
                                                                                   The Corporation
              Audit of Earned Education                                            has not issued a
              Awards Resulting from                                                Draft
      12-04                                           $0              12/30/2011
              Compelling Personal                                                  Management
              Circumstances                                                        Decision for this
                                                                                   report.

                         Total                     $297,941




26 
                                                                              Tables

V.	       Reports	Described	in	Prior	Semiannual	Reports	without	Final	Action	


Report                                                 Date
Number                        Title                   Issued      Final Action Due




              Audit of Corporation for National and
      11-11                                           7/25/2011       7/25/2012
              Community Service Grants Awarded to
              the New York City Office of the Mayor
              (NYC Mayor's Office)




                                                                                     27 
Tables
VI.	        Audit	Reports	Issued	

                                     April 1, 2012-September 30, 2012
    Report                                                   Dollars        Dollars          Funds Put To
                              Report Name
    Number                                                  Questioned    Unsupported         Better Use
                                                                         (Dollars in thousands)

                 Audit of National Service Trust Payments
    12-08                                                      $0              $0                  $0
                  to Financial and Education Institutions


                   Evaluation of the Corporation’s OMB
    12-09                                                      $0              $0                  $0
                Circular A-133 Reports Monitoring Process

                 Agreed-Upon Procedures for Corporation
    12-11         Grants Awarded to The New Teacher            $3              $2                  $99
                                Project

                 Agreed-Upon Procedures for Corporation
    12-12                                                     $395             $7                  $5
                     Grants Awarded to AIDS United


                 Agreed-Upon Procedures for Corporation
    12-13                                                     $392            $64                 $169
                  Grants Awarded to Oregon Volunteers

                 Agreed-Upon Procedures for Corporation
    12-14        Grants Awarded to Michigan Community         $244            $223                 $33
                          Service Commission


                  Audit of Corporation Grants Awarded to
    12-15                                                     $560            $499                $2,804
                           Operation REACH, Inc.


                 Agreed-Upon Procedures for Corporation
                     Grants Awarded to New Jersey
    12-16                                                    $1,895          $1,895                $0
                 Commission on National and Community
                               Service

                                 TOTAL                        $3,488         $2,690               $3,110
 




28 
